OIG Audit Report GR-90-06-004

Office of Community Oriented Policing Services Methamphetamine Initiative Grants 
Awarded to the Marion County Sheriffs Office, Salem, Oregon

Audit Report GR-90-06-004


February 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of three grants, awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the Marion County Sheriffs Office (MCSO) located in Salem, Oregon.  Two Methamphetamine Project-Clandestine Laboratory Enforcement grants were awarded to provide local rural law enforcement agencies with training and to purchase equipment for the eradication of methamphetamines.  A Drug Endangered Children grant was awarded to ensure that all children in methamphetamine contaminated homes will be assessed and treated for medical and psychological issues upon removal from the home.  As of February 20, 2003, the COPS awarded the MCSO three grants totaling $1,277,400.

We tested the MCSOs compliance with essential grant conditions, including budget management and control, grant expenditures, drawdowns, financial status and progress reports, program objectives, and compliance with regulations.  We found that the grantee was in compliance with the grant requirements and reimbursements claimed for costs were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.

We found that the MCSO did not record grant expenditures with separate cost center numbers for grants 2002-CKWX-0204 and 2003-CKWX-0095.  However, the MCSO manually tracked expenditures for each of the two grants separately.  Also, the MCSO established a policy that requires all grants to have a unique cost center number that will ensure that grant expenditures are accounted for separately.

Our report contains one recommendation to address an issue related to the submission of Financial Status Reports, which is discussed in detail in the Findings and Recommendations section of the report.  Our audit objective, scope, and methodology appear in the Appendix of the report. 

We discussed the results of our audit with MCSO officials.  In addition, we provided the grantee and the COPS Office with a draft of our report and have requested formal responses, which are appended to the report.